WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7978

Todd Alan Winkler | People of the State of California
(Petitioner) v. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

Oo I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
Lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

—_
Signature: aa t= \ Ct P=

Date: 5/28/21 "|

(Type or print) Name Robert C. Nash

© mr. O Ms. O Mrs. O Miss
Firm Attorney General of California
Address 1300 | Street, P.O. Box 944255
City & State Sacramento, CA Zip 94244-2550
Phone 9162107685 | Email fobert.nash@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Todd Alan Winkler, COCR# AV3989, P.O. Box 715071, Represa, CA 95671-5071

ce:
